APPENDIX A

FILED
IN THE SUPREME COURT OF TENNESSEE
AT NASHVILLE

04/07/2020
Clerk of the
Appellate Courts

GERALD A. SANFORD, SR. v. TENNESSEE DEPARTMENT OF
CORRECTION ET AL.
Circuit Court for Wayne County
No. 4727

No. M2018-00860-SC-R11-CV

ORDER
The appellant, Gerald A. Sanford, Sr., filed a Tenn. R. App. P. 11 application for
permission to appeal on March 16, 2020. The decision of the Court of Appeals was filed
on January 28, 2019. Mr. Sanford filed a petition to rehear on March 18, 2019, which
was dismissed on March 20, 2019. An application for permission to appeal must be filed
within sixty (60) days of the filing of the judgment of the intermediate appellate court or,
if a timely petition for rehearing was filed, within sixty (60) days of the entry of the order
on the petition for rehearing. See Tenn. R. App. P. 11(b). The sixty-day period for filing
an application for permission to appeal is jurisdictional and cannot be extended. See
Tenn. R. App. P. 2 & 21(b) and State v. Sims, 626 S.W.2d 3 (Tenn. 1981).
It is, therefore, ORDERED that the application for permission to appeal be
DISMISSED. Costs are taxed to Gerald A. Sanford, Sr., for which execution may issue if
necessary.
PER CURIAM

J

APPENDIX B

FILED
IN THE COURT OF APPEALS OF TENNESSEE
AT NASHVILLE
Assigned on Briefs January 7, 2019

01/28/2019
Clerk of the
Appellate Courts

GERALD A. SANFORD, SR. v. TENNESSEE DEPARTMENT OF
CORRECTION ET AL.
Circuit Court for Wayne County
No. 4727
No. M20I8-00860-COA-R3-CV

JUDGMENT
This cause came on to 'be regularly heard and considered by the Court and for the
reasons stated in the Opinion of this Court filed this date, it is so ORDERED that:
1. The decision of the trial court is affirmed as modified and the case is remanded
to the trial court for further proceedings consistent with the Opinion.
2, Costs of this appeal are taxed to the Appellant, Gerald A. Sanford, Sr., for
which execution may issue if necessary.

J. STEVEN STAFFORD, P.J., W.S.
CHARLES D. SUSANO, JR., J.
ANDY D. BENNETT, J.

FILED

IN THE COURT OF APPEALS OF TENNESSEE
AT NASHVILLE

07/24/2018
Clerk of the
Appellate Courts

GERALD A. SANFORD, SR. v. TENNESSEE DEPARTMENT OF
CORRECTION ET AL.
Circuit Court for Wayne County
No. 4727

No. M2018-OO86O-CO A-R3-CV

ORDER

The appellant has filed a “Motion for Clarity” regarding the record on appeal. It
appears from the motion and the prior filings in this matter that a transcript of the
evidence is not available and that a statement of the evidence is unnecessary because no
evidence was presented. It thus appears the appellant should have filed a Tenn. R. App.
P. 24(d) notice that no transcript or statement of the evidence would be filed. Under
Tenn. R. App. P. 25, the trial court clerk is not required to prepare and transmit the record
on appeal, which includes most of the documents filed in the trial court, until the
appellant files a Tenn. R. App. P. 24(d) notice. In order to avoid further delay, the court
will waive the filing of the Tenn. R. App. P. 24(d) notice and allow the appeal to proceed.
It is, therefore, ordered that the appellant’s failure to comply with Tenn. R. App. P.
24 is hereby waived. The appeal shall proceed without a transcript or statement of the
evidence. The trial court clerk shall prepare and transmit the record on appeal within
thirty days following the entry of this order.
PER CURIAM

FILED

IN THE COURT OF APPEALS OF TENNESSEE
AT NASHVILLE

03/20/2019
Clerk of the
Appellate Courts

GERALD A. SANFORD, SR. v. TENNESSEE DEPARTMENT OF
CORRECTION ET AL.
Circuit Court for Wayne County
No. 4727

No. M2018-00860-COA-R3-CV

ORDER
On March 18, 2019, Appellant Gerald A. Sanford, Sr. lodged a “Motion-to
Reconsider” this Court’s opinion issued January 28, 2019. See Sanford v. Tennessee
Dep’t of Correction, No. M2018-00860-COA-R3-CV, 2019 WL 351249 (Tenn. Ct. App.
Jan. 28, 2019). Therein, Appellant asks this Court to reconsider based on documents that
were not included in the appellate record, as Appellant asserts these documents were
wrongly omitted from the record.
b

Although Appellant asserts that his motion is timely based on the timeline
provided for motions to alter or amend in the Tennessee Rules of Civil Procedure, we
note that this motion is governed by the Tennessee Rules of Appellate Procedure.
Pursuant to Rule 39 of the Tennessee Rules of Appellate Procedure, petitions to rehear
opinions rendered by this Court must be filed within ten (10) days of the entry of
judgment unless the time is shortened or lengthened by this Court. Tenn. R. App. P.
39(b). This timeline will only be extended upon motion showing “extreme and
unavoidable circumstances.” Id. A petition to rehear this matter was therefore due on or
before February 7, 2019.
Appellant’s motion was lodged on March 18, 2019, well beyond the ten-day
timeline. Moreover, the certificate of service showing the purported original mailing date
of February 15, 2019, was also outside of the time provided by Rule 39. See also Tenn.
R. App. P. 20(g) (noting that where papers are filed by a pro se incarcerated litigant
“filing shall be timely if the papers were delivered to the appropriate person at the
correctional facility within the time fixed for filing”). Nothing in Appellant’s motion
shows “extreme and unavoidable circumstances” sufficient to justify an extension of this
time period. As such, Appellant’s petition to rehear is respectfully dismissed.
PER CURIAM

V

APPENDIX D

V

094-219-00

IN THE CIRCUIT COURT OF WAYNE COUNTY TENNESSEE
THE TWENTY SECOND JUDICIAL DISTRICT
AT WAYNESBORO
GERALD A. SANFORD SR.,
PLAINTIFF,
v.
TENNESSEE DEPARTMENT OF
CORRECTION, TDOC,
CORECIVIC,
DANNY DODD,
CINTHIA J. KELLEY,
TYLER MARTIN,
SHANE MCCLAIN,
SAMUEL MULKINS,
SCOTT PEELER,
BRENDA PEVAHOUSE,
LEIGH STAGGS,
ROBIN TODD,
DANIEL V. TOLER,
ROBERT COLE TURMAN,
TONYA WARNER,
BRUCE WOODS,
DEFENDANTS.

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

CASE NO; 4727

ORDER OF DISMISSAL

This matter came to be heard by the Honorable Robert L. Jones, Circuit Court Judge,
upon the CoreCivic Defendants’ and Tennessee Department of Correction Defendants’ Motions
to Dismiss. Based upon the filings of the parties and upon the record as a whole, the Court
hereby finds that the Defendants’ Motions are well-taken and are therefore GRANTED.
Accordingly, Plaintiff s Complaint is hereby DISMISSED with prejudice in its entirety.

APPENDIX C

-5

FILED
IN THE SUPREME COURT OF TENNESSEE
AT NASHVILLE

04/21/2020
Clerk of the
Appellate Courts

GERALD A. SANFORD, SR. v. TENNESSEE DEPARTMENT OF
CORRECTION ET AL.
Circuit Court for Wayne County
No. 4727

No. M20I8-00860-SC-R11-CV

ORDER
On April 7, 2020, this Court dismissed the application for permission to appeal
filed by Gerald Sanford, as untimely. On April 20, 2020, Mr. Sanford filed a “Motion to
Rehear,” which the Court construes as a petition for rehearing pursuant to Term. R. App.
P. 39. As indicated in the Court’s dismissal order, this Court has no jurisdiction to extend
the sixty-day period for filing an application for permission to appeal a decision of the
Court of Appeals. See Term. R. App. P. 11(b); Term. R. App. P. 2 & 21(b); and State v.
Sims, 626 S.W.2d 3 (Term. 1981). Accordingly, the petition to rehear is respectfully
denied.
PER CURIAM

Additional material
from this filing ‘IS
available in the
Clerk's Office

1

!

